No. 19-123

 

 

IN THE

Supreme Court of the Anited States

SHARONELL FULTON, ET AL.,
Petitioners,
v.

CITY OF PHILADELPHIA, ET AL.,
Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT

BRIEF OF JAMES AND GAIL BLAIS AND THE
GENERAL CONFERENCE OF SEVENTH-DAY
ADVENTISTS AS
AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,956 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 3, 2020.

 

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
